                            CTOR
                      SPE          GE
                 IN                     N
             F                              E
         O                                      R
     E




                                                A
 C




                                                    L
FI
OF




                                                        OFFICE OF INSPECTOR GENERAL
                                                             EXPORT-IMPORT BANK
                                                              of the UNITED STATES




           FISCAL YEAR 2010
        INFORMATION SECURITY
     PROGRAM AND PRACTICES AND
      TECHNICAL CONFIGURATION
               REVIEWS


                                                                     December 15, 2010
                                                                        OIG-AR-11-02
Office of Inspector General            Export-Import Bank
                                       of the United States


December 15, 2010


MEMORANDUM

TO:                 Fernanda Young
                    Chief Information Officer

FROM:               Jean Smith
                    Assistant Inspector General for Audit

SUBJECT:          Fiscal Year 2010 Information Security Program and Practices and
                  Technical Configuration Reviews (OIG-AR-11-02, December 15, 2010)

This memorandum transmits Cotton & Company LLP’s report on the results of the subject audit.
Under a contract monitored by this office, we engaged the independent firm of Cotton &
Company LLP to evaluate security controls over information, as well as to determine if Ex-Im
Bank met Federal Information Security Management Act requirements. The contract required the
audit to be performed in accordance with Government Auditing Standards, 2007 Revision, as
amended.

The Fiscal Year 2010 Information Security Program and Practices and Technical Configuration
Reviews audit report addresses issues associated with the security of information at Ex-Im Bank.
For that reason, we are not making the report available on-line, but it may be available under the
Freedom of Information Act.

We appreciate the courtesies and cooperation provided to the auditors during the audit. If you
have any questions, please call me at (202) 565-3944.


cc:      Michael Cushing, Senior Vice President – Resource Management
         Alice Albright, Executive Vice President and Chief Operating Officer
         John Lowry, Director, Information Technology Security and System Assurance
         Bill Smith, Director, Information Technology Infrastructure, Operational Security
                 and Operations
         John Simonson, Senior Vice President – Chief Financial Officer and Audit Liaison
         Patricia Wolf, Financial Reporting Supervisor




                  811 Vermont Avenue, N.W. Washington, D.C. 20571
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
